CASE NO.

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020

JERRY RAY CRAINE,
Petitioner,

V.

UNITED STATES OF AMERICA,
Respondent.

PROOF OF SERVICE
STATE OF OKLAHOMA )
) SS.

COUNTY OF OKLAHOMA )

In accordance with Supreme Court Rule 29.5, KYLE EDWARD
WACKENHEIM, attorney at law, being first duly sworn deposes and says that on
September 27,2021, the petition for writ ofcertiorari in the above entitled cause was
deposited in a United States Postal Service mail box located in Oklahoma City,
Oklahoma, with prior postage prepaid, properly addressed to the Clerk of the
Supreme Court of the United States, and with additional copies of the petition and

proof of service to:

Brian H. Fletcher
Solicitor General
Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
Robert J. Troester

Acting United States Attorney for the
Western District of Oklahoma
210 Park Avenue, Suite 400
Oklahoma City, Oklahoma 73102

Dated at Oklahoma City, Oklahoma, this 27th day of September 2021

'K'YLE EDWARD WACKENHEIM
Subscribed and sworn to before me this 27th day of September 2021.

.—.. .J>/fulA s /v^--

^g^Totary Public
My Commission Number

(2G I Pl ^

Commission Expires:

TTTTzf

